   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




March 29, 2011

TO:            Yolanda J. Butler, Ph.D.
               Acting Director
               Office of Community Services
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Florida’s Monitoring of CSBG Funds Provided to Community Action Agencies
               Under the American Recovery and Reinvestment Act (A-04-10-01081)


Attached, for your information, is an advance copy of our final report on the Florida’s
Monitoring of CSBG Funds Provided to Community Action Agencies Under the American
Recovery and Reinvestment. We will issue this report to the Florida Division of Housing and
Community Development within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov or Peter J. Barbera, Regional
Inspector General for Audit Services, at (404) 562-7750 or through email at
Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-10-01081.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303

March 30, 2011

Report Number: A-04-10-01081

Ms. Paula Lemmo
Community Programs Manager
Division of Housing and Community Development
Department of Community Affairs
2555 Shumard Oak Boulevard
Tallahassee, FL 32399-2100

Dear Ms. Lemmo:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Florida’s Monitoring of CSBG Funds Provided to
Community Action Agencies Under the American Recovery and Reinvestment Act. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mary Ann Moreno, Audit Manager, at (404) 562-7770 or through email at
Mary.Moreno@oig.hhs.gov. Please refer to report number A-04-10-01081 in all
correspondence.

                                             Sincerely,



                                             /Peter J. Barbera/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Paula Lemmo

Direct Reply to HHS Action Official:

Mr. Oscar Tanner
Director
Division of Financial Integrity
Sixth Floor East Wing, Aerospace Building
370 L’Enfant Promenade, SW
Washington, DC 20447
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




FLORIDA’S MONITORING OF CSBG
FUNDS PROVIDED TO COMMUNITY
 ACTION AGENCIES UNDER THE
   AMERICAN RECOVERY AND
      REINVESTMENT ACT




                       Daniel R. Levinson
                        Inspector General

                          March 2011
                         A-04-10-01081
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was reauthorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L. No. 105-
285, to provide funds to alleviate the causes and conditions of poverty in communities. The
CSBG funds a State-administered network of more than 1,100 local agencies that create,
coordinate, and deliver programs and services to low-income Americans. States received $681
million in 2009 and $680 million in 2010 through the CSBG.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (the Recovery Act),
provides $1 billion in additional CSBG funds for fiscal years (FY) 2009 and 2010.

Community Services Block Grant Program in Florida

In Florida, the Department of Community Affairs (the State agency) administers the CSBG
program. It is responsible for approving the State’s Community Action Agency (CAA)
Recovery Act grant applications and monitoring the CAAs for compliance with program
regulations. The State agency received approximately $35 million in regular CSBG funds for
2009 and 2010. The Recovery Act provided Florida with $29,060,460 in additional CSBG funds
for FYs 2009 and 2010 to 29 eligible entities.

Federal Requirements for State Monitoring of Community Service Block Grant Funds

Pursuant to section 678(B) of the CSBG Act, the State agency must monitor eligible entities by
conducting full onsite reviews of each eligible entity at least once during each 3-year period. A
State agency conducts these reviews to determine whether eligible entities meet the performance
goals, administrative standards, financial requirements, and other requirements of its State.

After the Recovery Act was implemented, the Administration for Children and Families (ACF)
issued guidance (IM-112, August 18, 2009) that requires State agencies to review risk
assessments conducted by eligible entities and provide the risk assessments to the Office of
Community Services with State comments.

OBJECTIVE

Our objective was to determine whether the State Agency has established adequate internal
controls for assessing and monitoring the CSBG funds provided to CAAs under the Recovery
Act.

SUMMARY OF FINDINGS

The State agency has established adequate internal controls for assessing and monitoring the
CSBG funds provided to CAAs under the Recovery Act. However, during our review we noted
issues involving onsite monitoring and timely awarding of funds.

                                                i
The State agency informed us that the late onsite monitoring occurred because it lost an
employee and had to hire and train a replacement. Also, additional work was imposed as a result
of the receipt of Recovery Act funds. State officials told us that the State did not award funds to
CAAs on time because it received the funds late.

As a result of these issues, risks are increased that intended recipients may not receive all of the
additional CSBG services envisioned in the Recovery Act.

RECOMMENDATION

We recommend that the State Agency conduct full onsite reviews at its CAAs in a timely manner
and ensure that future CSBG awards are distributed in accordance with the State plan.

STATE AGENCY COMMENTS

In its written response, the State agency concurred with our findings. The State Agency
described actions taken to address the monitoring issue and stated that notwithstanding the
untimely awarding of funds, the CAAs were able to expend 96.8 percent of the CSBG-ARRA
funds by September 30, 2010. The State agency’s comments are included in their entirety as the
Appendix.




                                                  ii
                                                  TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Federal Community Services Block Grant Program .....................................1
              Office of Community Services ......................................................................1
              Community Services Block Grant Program in Florida ..................................1
              Office of Inspector General Audits ................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          TIMELY ONSITE MONITORING ..........................................................................3

          TIMELY AWARDING OF FUNDS .........................................................................3

          RECOMMENDATION .............................................................................................4

          STATE AGENCY COMMENTS ..............................................................................4

APPENDIX

         FLORIDA DEPARTMENT OF COMMUNITY AFFAIRS COMMENTS




                                                                    iii
                                            INTRODUCTION


BACKGROUND

Federal Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was reauthorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L. No. 105-
285, to provide funds to alleviate poverty in communities. The CSBG funds a State-
administered network of more than 1,100 local agencies that create, coordinate, and deliver
programs and services to low-income Americans. States received $681 million in 2009 and $680
million in 2010 through the CSBG.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (the Recovery Act),
provides for $1 billion in additional CSBG funds for fiscal years (FY) 2009 and 2010. As with
annually appropriated CSBG funds, Recovery Act funds may be used to reduce poverty, to
revitalize low-income communities, and to help low-income families in rural and urban areas
become self-sufficient.

Office of Community Services

The U.S. Department of Health & Human Services (HHS), Administration for Children and
Families (ACF), Office of Community Services (OCS), is responsible for overseeing the CSBG.
States and territories submit applications annually or biannually to OCS that include (1) a
statement of goals and objectives, (2) information on the specific types of activities to be
supported, (3) areas and categories of individuals to be served, and (4) criteria and methods for
distributing funds to local agencies.

Community Services Block Grant Program in Florida

In Florida (the State), the Department of Community Affairs (the State agency) acts as the lead
agency for purposes of carrying out State activities for the CSBG program. The State agency is
responsible for approving the State’s Community Action Agency (CAA) Recovery Act grant
applications and monitoring the CAAs for compliance with program regulations. The State
agency received approximately $35 million in regular CSBG funds for 2009 and 2010.
The State agency was awarded with an additional $29,060,460 in Recovery Act funds for the
State’s CSBG program.

Office of Inspector General Audits

On December 31, 2009, we issued a memorandum 1 to ACF alerting it that CSBG program funds
made available under the Recovery Act might be at risk for fraud, waste, and abuse at certain

1
 Office of Inspector General, Alert: Community Service Block Grant Recovery Act Funding for Vulnerable and In-
Crisis Community Action Agencies (A-01-09-025111). Available online at
http://oig.hhs.gov/oas/reports/region1/10902511.pdf. Accessed on November 12, 2010.

                                                      1
CAAs that State agencies designated as “vulnerable” or “in crisis.” We reviewed ACF records in
November 2009 and identified 20 CAAs in 16 States that the States had reported as vulnerable or
in crisis as of October 30, 2009. These 20 CAAs are scheduled to receive a total of $44.9 million
in Recovery Act funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency has established adequate internal
controls for assessing and monitoring the CSBG funds provided to CAAs under the Recovery
Act.

Scope

We conducted a limited review of the State’s internal controls for assessing and monitoring the
CSBG funds provided to CAAs under the Recovery Act. We did not perform an overall
assessment of the Agency’s internal control structure. We reviewed only the internal controls
that pertained directly to our objectives. Our review period was April 1, 2009, through March
31, 2010.

We performed our fieldwork at the State agency in Tallahassee, Florida, during May 2010.

Methodology

To accomplish our objective, we:

   •    reviewed applicable State laws and regulations pertaining to the CSBG program and
        monitoring CAAs;

   •    reviewed applicable Federal laws and regulations pertaining to Federal CSBG awards and
        the CSBG program;

   •    reviewed OCS guidance;

   •    reviewed the previous Government Accountability Office and Office of Inspector
        General audit reports on OCS and State oversight of the CSBG program;

   •    reviewed the CAA’s independent audit reports, including A-133 reports;

   •    interviewed State agency officials to determine the policies, procedures, and controls
        related to oversight of the CAAs;

   •    reviewed the State agency’s supporting documentation for the CAAs they monitored; and

   •    reviewed the timeline for receipt and award of CSBG Recovery Act funding.

                                                 2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

The State agency has established adequate internal controls for assessing and monitoring the
CSBG funds provided to CAAs under the Recovery Act. However, during our review, we noted
issues involving onsite monitoring and timely awarding of funds.

The State agency informed us that the late onsite monitoring occurred because it lost an
employee and had to hire and train a replacement. Also, additional work was imposed as a result
of the receipt of Recovery Act funds. State officials told us that the State did not award funds to
CAAs on time because it received the funds late.

As a result of these issues, risks are increased that intended recipients may not receive all of the
additional CSBG services envisioned in the Recovery Act.

TIMELY ONSITE MONITORING

Federal regulations (42 U.S.C. § 9914) require the State to conduct a full onsite review of each
eligible entity at least once during each 3-year period to determine whether such entities meet the
performance goals, administrative standards, financial management requirements, and other
requirements.

The State had complied with the monitoring requirement of 42 U.S.C. § 9914 on 87 percent of its
eligible CSBG entities. However, the State was behind schedule and had missed the 3-year
monitoring interval on four entity reviews as of May 17, 2010. Three of the reviews were
between 1 and 3 months late, and one review was 6 months late.

TIMELY AWARDING OF FUNDS

According to the State Recovery Act Plan, Florida was to award 99 percent of the CSBG
Recovery Act funds before September 30, 2009. The State had awarded 71 percent of CSBG
Recovery Act funds timely. Of the $28,473,282 available for award to CAAs, the State awarded
$20,206,803 before September 30, 2009, and awarded the remaining $8,266,479 of funds
between October and December 2009.

As a result of these issues, risks are increased that intended recipients may not receive all of the
additional CSBG services envisioned in the Recovery Act.




                                                  3
RECOMMENDATION

We recommend that the State Agency conduct full onsite reviews at its CAAs in a timely manner
and ensure that future CSBG awards are distributed in accordance with the State plan.

STATE AGENCY COMMENTS

In its written response, the State agency concurred with our findings. The State Agency
described actions taken to address the monitoring issue and stated that notwithstanding the
untimely awarding of funds, the CAAs were able to expend 96.8 percent of the CSBG-ARRA
funds by September 30, 2010. The State agency’s comments are included in their entirety as the
Appendix.




                                              4
APPENDIX
 APPENDIX: FLORIDA DEPARTMEN
                           il    COMMUNITY AFFAIRS COMMENTS
                             . ~                      P~elcl3
                                                                 .          .
                                                                 ~~ wt '~

                                                      STATE OF FLORIDA


DEPARTMENT OF                                                  COMMUNITY AFFAIRS 

                   "Dedicated to making Florida a better place to call home "
   RICK SCOTT                                                                                                        BILLY BUZZETT
   Governor                                                                                                                 Secretary




                                                         February 7, 2011



Mr. Peter 1. Barbera
Regional Inspector General for Audit Services
Office of Audit Services, Region IV
Department of Health and Human Services
61 Forsyth Street, SW, Suite 3T41
Atlanta, GA 30303

       Re :        Audit Response to Report Number: A-04-10-01081

Dear Mr. Barbera:

       This letter is the Florida Department of Community Affairs' (Department) responses to
the above referenced draft report. The Department appreciates your comments and the
opportunity to respond to the draft report. We look forward to receiving the final outcomes of
the audit report.

     The following are statements of concurrence or non-concurrence to the Findings and
Recommendations.

                                    FINDINGS AND RECOMMENDATIONS

The State agency has established adequate internal controls for assessing and monitoring
the CSBG funds provided to CAAs under the Recovery Act. However, during our review,
we noted issues involving onsite monitoring and timely awarding of funds.

The State agency informed us that the late on site monitoring occurred because it lost an
employee and had to hire and train a replacement. Also, additional work was imposed as a
result of the receipt of recovery Act funds. State officials told us that the State did not
award funds to CAAs on time because it received the funds late.

As a result of these issues, risks are increased that intended recipients may not receive all of
the additional CSBG services envisioned in the Recovery Act.


     2555 SHUMARD                  OAK       BOULEVARD.                         TALLAHASSEE,                FL    32399-2100
           850-488-8466 (p )          •        850-921-078 1 ( f)               •   Webs i te : www . dca.state . fl us
       •   COMMUNITY PLANNING 850 -4 81>-2356 (p) 850 -488-3309 If) • FLORIDA COMMUNITIES TRUST 850-922-2 207 (p) 850-92 1-1747 If) •
                             • HOUSING AND COMMUNITY DEVELOPMENT 850-488-7956 Ip) 850-922 -5623 (f) •
                                                                                       Page 2 of3


February 7, 2011
Page 2


TIMELY ONSITE MONITORING
Federal regulations (42 USC 9914) require the State to conduct a full onsite review of each
eligibility entity at least once during each 3-year period to determine whether such entities
meet the performance goals, administrative standards, financial management
requirements, and other requirements.

The State had complied with the monitoring requirement of 42 USC 9914 on 87 percent of
its eligible eSBG entities. However, the State was behind schedule and had missed the 3­
year monitoring interval on four entity reviews as of May 17,2010. Three of the reviews
were between 1 and 3 months late, and one review was 6 months late.

Departments Response
The Department concurs with this finding. Over the past year the Department contracted with a
private firm to restructure their monitoring tools and the monitoring process. The new process
has established an even amount of document and information accumulation that can be handled
by the subgrantee. This is all sent to the monitor for pre-review prior to the on-site monitoring.
Once the pre-review is done then the on-site monitoring takes less time and provides the state
monitor the ability to work closely with the subgrantee on problems that have already been
identified before they get to the agency.

The Department has lost two monitors in this section over the past year; however the two new
people hired have monitoring prior federal program experience and have been trained on the new
tool. We view this as definite plus in being able to set and reach our goals to stay on track with
our monitoring schedules in the future.


TIMELY AWARDING OF FUNDS
According to the State Recovery Act Plan, Florida was to award 99 percent of the eSBG
Recovery Act funds before September 30,2009. The State had awarded 71 percent of
eSBG Recovery Act funds timely. Of the $28,473,282 available for award to eAAs, the
State awarded $20,206,803 before September 30, 2009, and awarded the remaining
$8,266,479 of funds between October and December 2009.

As a result of these issues, risks are increased that intended recipients may not receive all of
the additional eSBG services envisioned in the Recovery Act.

Departments Response
The Department concurs with this finding for the ARRA CSBG subgrant agreements; however,
the notification of the intent to_award the ARRA CSBG stimulus funds was not received by the
Department until April 21, 2009. At that time the Department expedited the state plan, moved
forward with developing and sending the sub grant agreements to the local Community Action
Agencies (CAA). The CAAs were asked to review, complete, execute and return their
agreements to the Department no later than August 3, 2009. The Florida state plan was not
                                                                                     Page 3 of3


February 7, 2011
Page 3


approved by USHHS until August 28,2009. The Department was hesitant to obligate the funds
until the CSBG-ARRA State Plan was approved. About half or our CAAs are local
governments. Agreements must be approved by the CAA boards as well as the local county
commissions. The delays with the local governments kept the Department from meeting its 99
percent obligation by September 30,2009.

The Department is aware that the agreements for the CSBG are more complex than most;
therefore, we strive to send the CAA's their agreements in June each year in order to assure they
are reviewed, completed and returned to the Department by October 1.

The CAAs were able to expend 96.8 percent of the CSBG-ARRA funds by September 30,2010.
Although there were delays in the Federal, State and local flow of these funds in the beginning of
the award, it is evident that the State and CAAs were able to expend the funds well under a very
demanding time frame.




                                                 JJ~~
                                                 Paula Lemmo,
                                                 Community Program Administrator
                                                 Community Assistance Programs

PL
